No. 20-1148

In the Supreme Court of the United States
Robert M. Sellers,

Petitioner,
v.
Denis R. McDonough,
Secretary of Veterans Affairs,

Respondent.
PROOF OF SERVICE
I hereby certify that on March 23, 2021, I caused three copies of the Brief
Amicus Curiae of Military-Veterans Advocacy Supporting Petitioner to be served by
regular mail and electronic mail to the counsel of record listed below.
Melanie L. Bostwick
Orrick, Herrington & Sutcliffe LLP
1152 15th Street NW
Washington, DC 20005
mbostwick@orrick.com

Counsel for Petitioner
Robert M. Sellers

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@USDOJ.gov

Counsel for Respondent
Denis R. McDonough,
Secretary of Veterans Affairs

I hereby certify that all parties required to be served have been served. I
declare under penalty of perjury that the foregoing is true and correct.

Executed on the 23rd day of March 2021.
/s/ Michael E. Joffre
MICHAEL E. JOFFRE
STERNE KESSLER GOLDSTEIN & FOX, PLLC
1100 NEW YORK AVENUE, NW
WASHINGTON, DC 20005
202.371.2600

Counsel for Amicus Curiae
Military-Veterans Advocacy, Inc.

